BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1088
DAVID AND AMY CARSON, AS PARENTS AND NEXT
FRIENDS OF 0.C., AND TROY AND ANGELA NELSON, AS
PARENTS AND NEXT FRIENDS OF A.N. AND R.N.,

Petitioners,
V.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF
EDUCATION,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief for Council of Islamic Schools in North
America, Partnership for Inner-City Education, and
Union of Orthodox Jewish Congregations ofAmerica as
Amici Curiae in Support of Petitioners contains 4,406
words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.

H(Y?~

Executed on March 11, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

1

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

